CERTIFICATE OF SERVICE
No. 19-382
John Teets,
Petitioner,
v.
Great-West Life & Annuity Insurance Company,
Respondent.
I, Carter G. Phillips, do hereby certify that, on this seventeenth day of
October, 2019, I caused three copies and an electronic copy of the Brief in
Opposition in the foregoing case to be served by overnight commercial carrier, and
by email, on the following party:
PETER K. STRIS
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
peter.stris@strismaher.com
(213) 995-6800
Counsel for Petitioner
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

